Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Medicare + Choice HMO Extra Benefits

        Beneficiary Perspectives




                    JUNE GIBBS BROWN
                     Inspector General

                       FEBRUARY 2000
                       OEI-02-99-00030
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Demetra Arapakos, Team Leader
                          Tricia Davis, Program Specialist
Ellen Vinkey, Project Leader
                           Scott Horning, Technical Support
Lucille Cop
                                            Brian Ritchie, Technical Support
Vincent Greiber
                                        Barbara Tedesco, Statistician




      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                        EXECUTIVE SUMMARY

PURPOSE

         To determine the degree to which extra benefits influence beneficiaries’ decisions to join
         Medicare + Choice health maintenance organizations (HMOs) and the extent to which
         they value and understand the extra benefits offered by these health plans.

BACKGROUND

         The Medicare managed care environment has recently undergone significant change.
         Medicare + Choice provisions established in the 1997 Balanced Budget Act resulted in an
         increased number of health plan options for beneficiaries. In addition, a number of HMOs
         have recently dropped out of some markets, causing beneficiaries in these areas to
         consider other coverage options. As of September 1999, 17 percent of beneficiaries
         nationwide had chosen HMOs over the traditional fee-for-service program. This study
         will contribute important data to the body of knowledge on how and why beneficiaries
         choose Medicare HMOs, thereby assisting Medicare policy makers in their efforts to
         improve the Medicare program.

         Generally, HMOs are paid a prospective capitated payment to provide all Medicare-
         covered services to their enrollees. Additionally, many provide enrollees with coverage
         that exceeds Medicare-covered services in the form of extra benefits. As of December
         1998, over 50 percent of HMOs offered the following extra benefits: outpatient drug
         coverage, routine physicals, eye exams, ear exams, and immunizations. Other extra
         benefits that were offered, but to a lesser degree, include: health education, dental
         coverage, foot care, eye glasses and hearing aids.

         We used three methods for this inspection. First, we conducted a mail survey of a
         stratified random sample of 600 recent Medicare+Choice HMO enrollees. Second, we
         conducted an analysis of beneficiary knowledge to determine their level of understanding
         of their extra benefits. Third, we reviewed written marketing materials from the plans
         associated with our sample beneficiaries.

FINDINGS

Lower Costs Are More Important Than Extra Benefits

         Enrollees Say Lower Costs Main Reason For Joining. Three out of four recent HMO
         enrollees report that lower costs were one of the reasons they decided to join their health


Medicare + Choice HMO Extra Benefits              1                                     OEI-02-99-00030
         plan. In fact, half (49 percent) say it was the most important reason. There are a number
         of different costs which may be lower for HMO enrollees than for Medicare beneficiaries
         in the fee-for-service program. These can include lower co-payments for doctor visits and
         the lack of an annual deductible that must be met out-of-pocket prior to coverage by the
         Medicare program. HMO enrollees can also be charged either no or a low monthly HMO
         premium. The most recent HCFA data available indicate that, as of December 1998, 7
         percent of all HMOs do not require beneficiaries to make any co-payment for office visits
         and 70 percent of plans charge no monthly premium. Forty percent of beneficiaries
         report that they would not stay with their HMO if they did not get the benefit of lower
         costs.

         Prescription Drug Coverage Most Important Extra Benefit. While half of recent
         enrollees say that extra benefits influenced their decision to join an HMO, one third of all
         recent enrollees indicate that prescription drug coverage was the single most important
         reason they chose their HMO. Approximately 68 percent of all HMOs offered drug
         coverage as of December 1998.

         Most Enrollees Compare Plans and Extra Benefits When Joining a HMO. The
         majority of recent enrollees (63 percent) report that they looked at more than one plan
         before they joined their HMO, almost all of whom compared extra benefits. When
         deciding to join, many (64 percent) think they will get health care services with their HMO
         that they would not get if they chose the Medicare fee-for-service program.

Once Enrolled In a HMO, Medicare Beneficiaries Value Prescription Drugs,
Regular Physicals, and Vision Benefits The Most

         Three types of extra benefits are particularly valued by HMO enrollees. When asked
         which three benefits are most important to them, 87 percent of recent enrollees say
         prescription drugs, 70 percent say regular physicals, and 68 percent say vision benefits.
         According to HCFA data over 50 percent of plans offer some coverage at no extra cost to
         beneficiaries for drugs, regular physicals, and eye exams. The number of plans that offer
         eye glass coverage is much smaller; less than 5 percent. Although highly valued, the
         prescription drug benefit is least likely to meet enrollees’ expectations. Forty percent
         report that they are not receiving the kind of drug coverage they expected. More
         specifically, a quarter say they spend more on drugs than they thought they would.

HMO Enrollees’ Understanding of Their Extra Benefits is Uneven

         Enrollees accurately report coverage of regular physicals but their understanding of
         other benefits is not as high. When we compared enrollees’ answers about the extra
         benefits their plan provides to Medicare HMO contract data, just under 90 percent of
         recent enrollees’ answers matched Medicare data with regard to coverage for regular



Medicare + Choice HMO Extra Benefits               2                                      OEI-02-99-00030
         physicals. However, HMO enrollee understanding of other highly valued benefits, such as
         prescription drugs and vision care, is not has high.

         While generally easy to understand, sample HMO marketing materials vary greatly.
         Almost all HMO plans in our sample (99 percent) include information on extra benefits in
         their marketing materials. However, significant variation exists in the format and length of
         these materials. In addition, when we reviewed information on prescription drug
         coverage, we found potential for confusion. For example, almost 10 percent of sample
         plan materials we reviewed did not indicate whether or not the plan provides prescription
         drug coverage.

RECOMMENDATIONS

         The findings of this report indicate that lower costs and extra benefits, particularly drug
         coverage, are important to prospective HMO enrollees. We are also releasing two
         concurrent reports on HCFA’s new marketing guidelines. A common thread among all of
         these reports is that beneficiaries seek out but do not always find adequate information
         they can use to make informed comparisons among Medicare + Choice HMOs. As noted
         in this study, many recent enrollees do not understand which extra benefits their plan
         offers and HMO marketing materials contain inconsistent marketing information.

         Therefore, we recommend that HCFA develop mechanisms to assure comparability
         of Medicare + Choice HMO plan costs and benefits. HCFA has been taking steps to
         develop a standard format for plan benefit summaries. We support these steps and
         encourage the completion of this task. We believe that greater standardization can
         improve prospective enrollees’ ability to make informed comparisons. Furthermore,
         enrollees’ expectations are more likely to be fulfilled if standardized benefit information is
         available to them when choosing a Medicare + Choice health plan.




Medicare + Choice HMO Extra Benefits                3                                      OEI-02-99-00030
                         TABLE                       OF             CONTENTS


                                                                                                                          PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Lower Costs Are More Important Than Extra Benefits . . . . . . . . . . . . . . . . . . . . . . . . 10


          Enrollees Value Drugs, Regular Physicals and Vision Benefits . . . . . . . . . . . . . . . . . . . 11


          Enrollee Understanding of Extra Benefits is Uneven . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES


          A: Selected List of Recent OIG HMO Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          B: Confidence Intervals for Key Questions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          C: Beneficiary Non-Respondent Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          D: Agency Comments              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





Medicare + Choice HMO Extra Benefits                            4                                                  OEI-02-99-00030
                                  INTRODUCTION

PURPOSE

         To determine the degree to which extra benefits influence beneficiaries’ decisions to join
         Medicare + Choice health maintenance organizations (HMOs) and the extent to which
         they value and understand the extra benefits offered by these health plans.

BACKGROUND

         The Medicare managed care environment has recently undergone significant change. The
         Balanced Budget Act of 1997 resulted in an increased number of health plan options for
         beneficiaries. In addition, a number of HMOs have recently dropped out of some markets,
         causing beneficiaries in these areas to consider other coverage options. This study will
         contribute important data to the body of knowledge on how and why beneficiaries choose
         Medicare HMOs, thereby assisting Medicare policy makers in their efforts to improve the
         Medicare program.

         The Office of Inspector General (OIG) has conducted numerous inspections on Medicare
         HMOs (see Appendix A). Of primary relevance to this study are two concurrent reports 1.
         The first, on new marketing guidelines, found that few approved marketing materials were
         in full compliance with HCFA requirements. The second found that limitations exist in
         HCFA’s review process. The OIG is also conducting a study on the impact of HMO
         closures on Medicare beneficiaries. Additionally, the GAO released a report2 in April
         1999 which found that Medicare + Choice HMO plan materials are often confusing and
         hard to compare.

Increasing Health Care Plan Choices for Beneficiaries

         The 1997 Balanced Budget Act established Medicare + Choice provisions which set forth
         a number of different “coordinated care” options for beneficiaries to choose from. These
         new options mean that beneficiaries now need to make informed choices between the
         traditional fee-for-service health care program and a number of different types of managed
         care organizations. Managed care options include: Medicare + Choice HMOs (formerly
         called risk-HMOs) and newer alternatives such as Medicare + Choice preferred provider


         1
      “Medicare Managed Care: 1998 Marketing Materials” OEI-03-98-00271 and “Medicare
Managed Care: Goals of National Marketing Guide” OEI-03-98-00270
         2
        Medicare + Choice- New Standards Could Improve Accuracy and Usefulness of Plan
Literature GAO/HEHS-99-92

Medicare + Choice HMO Extra Benefits              5                                     OEI-02-99-00030
         organizations, provider sponsored organizations and private fee-for-service plans. The
         Health Care Financing Administration (HCFA) continues to take steps to help
         beneficiaries make informed health plan choices in this new environment. In November
         1998, they began a large scale informational campaign to send every beneficiary in the
         country a mailing that describes the new Medicare + Choice options.

Medicare + Choice HMOs

         As indicated above, there are a variety of different types of Medicare + Choice managed
         care organizations. Most use a gatekeeper (usually a primary care physician) who must
         approve additional medical services. Historically, there have been a number of ways that
         managed care organizations contracted with HCFA to provide services. Most recently
         the majority of managed care organizations were Medicare risk-HMOs. Under these
         contracts, established in the Tax Equity and Fiscal Responsibility Act of 1982 (TEFRA),
         plans were paid a prospective capitated payment to provide all Medicare-covered services
         to beneficiaries. Within the last year, Medicare risk-HMO contracts have been converted
         to Medicare + Choice contracts. All Medicare + Choice organizations are paid on a risk
         basis. The amount of the capitated payment is based on a complicated formula which is
         currently under going change. The formula includes factors such as: fee-for-service
         program historical expenditures; inflation estimates; differences in county level spending;
         and the individual characteristics of the plan’s enrollees.

         The percentage of Medicare beneficiaries who choose managed care health plans over the
         traditional fee-for-service program continues to grow. In 1994, prior to the
         implementation of Medicare + Choice, 5 percent of Medicare beneficiaries were enrolled
         in risk HMO plans, with the vast majority remaining in the traditional fee-for-service
         program. As of September 1999, 17 percent of Medicare beneficiaries nationwide
         (approximately 6 million), had chosen risk HMOs over the traditional fee-for-service
         program. Because the geographical distribution of enrollment varies widely, the
         percentage of beneficiaries enrolled in risk HMOs is much greater in some parts of the
         country. In Arizona and California, for example, approximately 40 percent of beneficiaries
         were enrolled in a risk HMO as of September 1999. In contrast, nine States had no
         Medicare beneficiaries enrollees in risk HMO enrollees (Alaska, Iowa, Mississippi,
         Montana, North Dakota, South Dakota, Utah, Vermont, and Wyoming).

Extra Benefits Offered by Medicare + Choice HMOs

         Many Medicare + Choice HMOs provide enrollees coverage that exceeds the required
         Medicare benefits for beneficiaries in the fee-for-service program. There are two kinds of
         extra benefits that these HMOs can provide for Medicare beneficiaries-- those funded out
         of savings (mandated by Medicare to the extent that the plan has savings) and optional
         benefits the HMO decides to provide (sometimes at an additional charge to beneficiaries).
         Historically, fee-for-service Medicare beneficiaries have purchased Medigap insurance to
         cover some of the health care expenses that Medicare does not cover and to reduce their

Medicare + Choice HMO Extra Benefits              6                                     OEI-02-99-00030
         out-of-pocket costs. Medicare + Choice HMO beneficiaries who enroll in plans that offer
         extra benefits can get some of the same coverage that Medigap insurance provides without
         paying a Medigap premium. Two examples of extra benefits offered include prescription
         drug coverage and eye exams, neither of which are covered in the fee-for-service program.

         Extra Benefits Funded Out of Savings. Plans are required to use revenues that exceed
         their allowable profits to fund extra noncovered benefits for Medicare enrollees. These
         extra benefits can take the form of either additional health care coverage or reduced
         beneficiary cost sharing, such as the elimination of the HMO monthly premium that
         Medicare gives HMOs the option to charge.

         As of December 1998, over 50 percent of plans offered each of the following: routine
         physicals, eye and ear exams, outpatient drug coverage and immunizations. Other extra
         benefits that were offered, but to a lesser degree, included the following: health
         education, dental coverage, foot care, eye glasses and hearing aids. It is important to note
         that in many instances the amount of coverage being offered is limited. For example, most
         HMOs limit the coverage they provide for drugs to some specified dollar amount each
         year.

         In addition to cost sharing benefits offered in the form of waived HMO monthly premiums
         some HMOs reduce costs by eliminating co-payments for office visits. As of December
         1998, 70 percent of plans waived the monthly premium and 7 percent of risk HMOs did
         not require beneficiaries to make any co-payment for office visits.

         Optional Extra Benefits. As indicated earlier, Medicare + Choice HMOs are also
         allowed to offer extra benefits to Medicare beneficiaries beyond those required to spend
         the savings. They are usually inclined to do so in response to local market forces. Plans
         that offer extra benefits and no premiums are more likely to attract beneficiaries. While
         plans are allowed to charge for these benefits, they must do so within certain guidelines.
         Often these benefits are offered to beneficiaries in the form of one or more high-option
         packages. As of December 1998, just over half of Medicare risk HMOs offered a high-
         option plan.

         In addition to the extra benefits and reduced cost sharing mentioned above, there are other
         cost advantages which affect many HMO enrollees. Although they must pay the $45.50
         monthly Medicare Part B premium for doctor visit coverage, they generally pay
         significantly lower co-payments for office visits than they would in the fee-for-service
         program. In addition, Medicare + Choice HMOs generally do not require the payment of
         an annual deductible amount prior to covering services. Interestingly, a number of State
         Health Insurance Program counselors report a recent significant increase in Medigap




Medicare + Choice HMO Extra Benefits              7                                     OEI-02-99-00030
         premiums and note that these increases are driving many beneficiaries to consider
         switching from traditional fee-for-service Medicare to HMOs.

METHODOLOGY

Multiple Methods

         We used three methods for this inspection. First, we conducted a mail survey of recent
         Medicare+Choice HMO enrollees. Second, we conducted an analysis of beneficiary
         understanding of their extra benefits. Third, we reviewed written marketing materials
         from the plans associated with our sample beneficiaries.

Sample Selection

         Using the HCFA’s Group Health Plan (GHP) Master file, we selected a stratified random
         sample of 600 beneficiaries who had enrolled in Medicare+Choice HMOs between August
         1, 1998 and January 31, 1999. (Throughout the balance of this report the term HMO will
         be used to refer to Medicare+Choice HMOs.) The sample was stratified based on the size
         of the HMO plan the beneficiary was in. The three strata included: beneficiaries enrolled
         in plans with less than 20,000 enrollees; beneficiaries in plans with 20,000-50,000
         enrollees and beneficiaries in plans with greater than 50,000 enrollees.
         We included only beneficiaries who had recently enrolled which improved the likelihood
         that survey respondents were able to recall the decision making process they went through
         when choosing between Medicare providers. Beneficiaries who were new to their HMO
         only because their HMO merged with another HMO were dropped from the universe.

Beneficiary Survey

         A self-administered questionnaire was mailed to all 600 sample beneficiaries. Follow-up
         postcards and a second mailing of questionnaires were used to achieve a 74 percent
         response rate. Data collection was done during April and May 1999. In order to ensure
         that the questions we asked used language that was familiar to respondents, we held a
         focus group at a local senior citizen center to get Medicare beneficiary input on a draft
         version of the questionnaire. After incorporating what we learned from the focus group,
         we pre-tested the survey instrument again, by mailing it to beneficiaries who filled it out
         and then provided feedback through telephone discussions. This helped us to ensure that
         the instructions were clear and the questions were relevant. The mail survey included
         questions about the extra benefits beneficiaries’ HMOs offer and the relative importance
         of different factors when they were choosing a HMO plan.




Medicare + Choice HMO Extra Benefits              8                                      OEI-02-99-00030
Analysis of Beneficiary Knowledge

         To assess beneficiaries’ understanding of the extra benefits covered by their HMO, we
         compared their answers to survey questions about the extra benefits their HMO provides
         to HCFA information on coverage offered by their HMOs. HMO contract numbers were
         used to match beneficiaries’ HMOs with the pertinent HCFA coverage data. In a small
         number of instances, HCFA data was not available for a given contract. We performed
         this analysis for all beneficiaries in our sample who answered the pertinent survey
         questions and for whom HCFA coverage data was available.

Marketing Material Analysis

         We requested the written marketing materials used to communicate with prospective plan
         members from all HMOs associated with our sample beneficiaries. We asked plans to
         submit materials used between June 1, 1998 and January 1, 1999, the period during which
         our sample beneficiaries would most likely have been comparing HMO plans. Almost all
         of the sample plans submitted the materials requested; our analysis was performed on 191
         of the 206 plans included in our sample. The total number of Medicare + Choice risk
         HMOs at the time we pulled our sample was 297. Using a structured review sheet, we
         evaluated whether extra benefit coverage was provided, whether language was clear, if
         limitations were listed prominently, how thoroughly the drug benefit was explained, and,
         the degree to which variation existed among marketing materials.

Methodology Limitations

         There are several limitations to our analysis of beneficiary knowledge. The HCFA’s data
         does not include all extra benefits HMOs offer, so our comparison of what beneficiaries
         say they get and what their HMO contracts with HCFA to provide is limited. Two of the
         primary benefits we are unable to address in this analysis are dental care and transportation
         coverage. Second, and most importantly, we did not have data indicating whether sample
         beneficiaries were enrolled in their HMOs basic or optional hi-rider plan. As a result, to
         the extent that sample beneficiaries have opted for a hi-rider plan, our analysis may
         overstate the number of beneficiaries who overestimate their extra benefit coverage.

         This inspection was conducted in accordance with the Quality Standards for
         Inspections issued by the President’s Council on Integrity and Efficiency.




Medicare + Choice HMO Extra Benefits               9                                     OEI-02-99-00030
                                       FINDINGS

Lower Costs Are More Important Than Extra Benefits
Enrollees Say Lower Costs Main Reason For Joining

         Three out of four recent HMO enrollees report that lower costs were one of the reasons
         they decided to join their health plan. Of the enrollees who say cost is the most important
         reason they joined their HMO, a quarter indicate that no monthly HMO premium was the
         most important factor, 15 percent cite low co-payments for doctors visits, and 9 percent
         cite their low monthly premium.

         As indicated in the background, there are a number of different costs which may be lower
         for HMO enrollees than for Medicare beneficiaries in the fee-for-service program. These
         can include lower co-payments for doctor visits and the lack of an annual deductible that
         must be met out-of-pocket prior to coverage by the Medicare program. Enrollees can also
         be charged either no or a low monthly premium. The most recent HCFA data available
         indicate that, as of December 1998, 7 percent of all HMOs do not require beneficiaries to
         make any co-payment for office visits and 70 percent of plans charge no monthly
         premium.

         Forty percent of beneficiaries report that they would not stay with their HMO if they did
         not get the benefit of lower costs; they would either choose a less expensive HMO or
         switch to the Medicare fee-for-service program. Many (38 percent) do not know what
         they would do if costs increased.

Prescription Drug Coverage Most Important Extra Benefit

         While half of recent enrollees say that extra benefits in general influenced their decision to
         join an HMO, prescription drug coverage was particularly important. One third of all
         recent enrollees indicate that this coverage was the single most important reason they
         chose their HMO. Approximately 68 percent of all HMOs offered drug coverage as of
         December 1998. Only 5 percent of recent enrollees cite any other individual extra benefit
         as their main reason, with almost all of these saying that coverage for regular physicals
         was of primary importance.

Participating Doctors, Proximity, and Plan Reputation Also Considered

         Recent enrollees cite other factors as playing a role in their decision to join. These include
         the HMO’s participating doctors, its proximity, and its reputation. Over half report that
         the doctors at the HMO are one of the reasons they decided to join. Expressing this

Medicare + Choice HMO Extra Benefits               10                                      OEI-02-99-00030
         sentiment, one beneficiary reports, “most of my doctors are with this HMO”; another
         recent HMO enrollee says, “I went to an HMO because of cost and because my doctor
         was in the plan.” The proximity and reputation of the HMO are two other considerations
         that enrollees report influence their decision to join. Just over 40 percent report that the
         plan’s close location to their home and reputation for quality care are important.

Most Enrollees Compare Plans and Extra Benefits When Joining a HMO

         The majority of recent enrollees (63 percent) report that they looked at more than one
         plan before they joined their HMO, almost all of whom compared extra benefits. Many
         recent enrollees (64 percent) think they will get health care services with their HMO that
         they would not get if they were in the Medicare fee-for-service program. The majority of
         recent HMO enrollees report that they do not think they gave anything up in order to
         receive these extra benefits; the few who think they did make a trade-off report that they
         lost the freedom to use a particular MD or specialist.


Once Enrolled In a HMO, Medicare Beneficiaries Value Prescription
Drugs, Regular Physicals, and Vision Benefits The Most

These Three Benefits Are Also Used The Most

         Three types of extra benefits are particularly valued by HMO enrollees. When asked
         which three benefits are most important to them, 87 percent of recent enrollees say
         prescription drugs, 70 percent say regular physicals and 68 percent say vision benefits3. In
         addition, just under a quarter of enrollees included dental care on their list of most valued
         extra benefits. Of least importance to recent enrollees is acupuncture, with one half saying
         this is the benefit they value the least. As indicated in the background, according to
         HCFA data over 50 percent of plans offer some coverage at no extra cost to beneficiaries
         for drugs, regular physicals, and eye exams. The number of plans that offer eye glass
         coverage is much smaller; less than 5 percent.

         Recent enrollees report using a large number of their extra benefits, even within the
         relatively short time frame that they have been members of their HMO. A majority of
         recent enrollees say they used five of eleven commonly offered extra benefits within six
         months of joining their plan. These five benefits include, in order of frequency,
         prescription drugs, regular physicals, eye exams, eye glasses, and health education
         services. Almost half of recent HMO enrollees say that they would choose another HMO
         or switch to the Medicare fee-for-service program if their HMO stopped offering extra
         benefits.



         3
          Eye exams and eye glasses

Medicare + Choice HMO Extra Benefits              11                                     OEI-02-99-00030
However, The Prescription Drug Benefit Is Least Likely to Meet Enrollees’
Expectations

         Although a majority of all enrollees (80 percent) say that overall their expectations are
         being met, 40 percent report that they are not receiving the kind of drug coverage they
         expected when they joined their HMO. More specifically, a quarter say they spend more
         on drugs than they thought they would. Some of the reasons enrollees may be less than
         satisfied with drug coverage include: annual limits on drugs that they view as too low to
         meet their needs effectively; plan rules regarding generic vs. non-generic drugs; and, the
         amount of the co-payment required at the time a prescription is filled.

         Most HMO enrollees do, in fact, have some limitations on their drug coverage. Ninety
         percent report that they are required to make a co-payment when they fill a prescription.
         In addition, over half of recent enrollees say their plan puts a limit on the amount of
         money the HMO will pay for drugs in a given year. Enrollees report limits ranging from
         $200 to $4000.


HMO Enrollees’ Understanding of Their Extra Benefits is Uneven

Enrollees Most Accurately Report Coverage of Regular Physicals But Their
Understanding of Other Benefits is Not as High

         When we compared enrollees’ answers about extra benefits provided by their HMO to
         Medicare data on the benefits HMOs are contracted to provide, just under 90 percent of
         enrollees’ answers matched Medicare program data with regard to coverage for regular
         physicals. However, HMO enrollee understanding of other benefits is not as accurate. As
         the table on the next page indicates, enrollees have a less accurate understanding about
         the other six benefits we analyzed. These include three highly valued benefits: drug
         coverage, eye exams, and eye glasses.




Medicare + Choice HMO Extra Benefits             12                                     OEI-02-99-00030
                                            Table 1
                      HMO Enrollee Understanding of Extra Benefit Coverage

                                                          Enrollees Who
                                       Benefit             Accurately
                                                         Report Coverage


                               Regular Physicals              89%
                               Prescription Drugs             80%
                               Eye Exams                      75%
                               Ear Exams                      42%
                               Foot Care                      39%
                               Hearing Aid                    25%
                               Eye Glasses                    14%


         Enrollees who do not accurately report their extra benefit coverage fall into three
         categories: those who overestimate their coverage, those who underestimate it, and those
         who say they do not know whether or not they have coverage for a particular benefit.
         Generally, HMO enrollees are more likely to overestimate, rather than underestimate, the
         benefits their HMO provides. Furthermore, many enrollees do not know whether or not
         they are receiving extra benefits. For example, over one third of all recent enrollees report
         that they do not know whether their HMO provides coverage for hearing aids, ear exams
         or foot exams.

While Generally Easy to Understand, Sample Marketing Materials Vary Greatly

         We reviewed sample HMO marketing materials used to communicate with prospective
         Medicare HMO plan members. These materials included marketing pamphlets, booklets
         describing plan benefits, as well as plan applications. Our analysis focused primarily on
         whether the materials provide clear information on extra benefits. Almost all HMO plans
         in our sample include information on extra benefits in their marketing materials. Also, we
         found that the majority of plans list this information prominently and use language that we
         judged relatively easy to understand.

         However, when we reviewed marketing material information on prescription drug
         coverage, we found potential for confusion. Almost 10 percent of sample plan marketing


Medicare + Choice HMO Extra Benefits                13                                   OEI-02-99-00030
         materials we reviewed did not indicate whether or not the plan provides prescription drug
         coverage. When drug coverage is addressed, a few plans do not indicate the amount of
         the annual dollar limit.

         Additionally, our review found significant variation in marketing information. For
         example, we found variation in the length of materials, with some plan materials being
         very lengthy, while others are only a few pages long. Lengthier materials may make it
         more difficult for prospective HMO enrollees to locate and understand information on
         extra benefit coverage and cost sharing requirements. The format of extra benefit
         information included in sample marketing materials also varies. For example, only 35
         percent of marketing materials provide a reference for extra benefit information in their
         table of contents.

         A recent OIG report looked at the HCFA review process for HMO marketing materials.
         That report found that only 13 percent of materials were in full compliance with guidelines
         used by HCFA to ensure accurate materials that are useful to prospective enrollees. In
         addition, 40 percent were found to be confusing, and 28 percent contained jargon.




Medicare + Choice HMO Extra Benefits              14                                     OEI-02-99-00030
                            RECOMMENDATION

         The findings of this report indicate that lower costs and extra benefits, particularly drug
         coverage, are important to prospective HMO enrollees. As noted earlier, we are also
         releasing two concurrent reports on HCFA’s new marketing guidelines. A common
         thread among all of these reports is that beneficiaries seek out but do not always find
         adequate information they can use to make informed comparisons among Medicare +
         Choice HMOs. As noted in this study, many recent enrollees do not understand which
         extra benefits their plan offers and HMO marketing materials contain inconsistent
         marketing information.

         Therefore, we recommend that HCFA develop mechanisms to assure comparability
         of Medicare + Choice HMO plan costs and benefits. HCFA has been taking steps to
         develop a standard format for plan benefit summaries. We support these steps and
         encourage the completion of this task. We believe that greater standardization can
         improve prospective enrollees’ ability to make informed comparisons. Furthermore,
         enrollees’ expectations are more likely to be fulfilled if standardized benefit information is
         available to them when choosing a Medicare + Choice health plan.




Medicare + Choice HMO Extra Benefits               15                                      OEI-02-99-00030
                                                                   APPENDIX A


SELECTED LIST OF RECENT OFFICE OF INSPECTOR GENERAL HMO
INSPECTIONS


Office of Inspector General, US Department of Health and Human Services, “Medicare Managed
Care- 1998 Marketing Materials,” OEI-03-98-00271, February 2000.

Office of Inspector General, US Department of Health and Human Services, “Medicare Managed
Care- Goals of National Marketing Guide,” OEI-03-98-00270, February 2000.

Office of Inspector General, US Department of Health and Human Services, “Medicare
Beneficiary Interest in HMOs in 1997,” OEI-04-97-00032, September 1998.

Office of Inspector General, US Department of Health and Human Services, “Capitation Rates for
Medicare Managed Care Plans Are Inflated Due to Improper Payments Included in Rate
Calculations,” A-14-97-00206, September 1998.

Office of Inspector General, US Department of Health and Human Services, “Medicare HMO
Appeals and Grievance Processes: Beneficiary Understanding,” OEI-07-94-00281, December
1996.




Medicare + Choice HMO Extra Benefits         16                                   OEI-02-99-00030
                                                                    APPENDIX B


CONFIDENCE INTERVALS FOR KEY FINDINGS




                      KEY FINDINGS                           POINT     CONFIDENCE
                                                            ESTIMATE    INTERVAL
 HMO enrollees report that lower costs are the most           71%         + 4.5
 important reason they decided to join their HMO.


 Recent enrollees indicate that drug coverage was the         30%         + 5.0
 single most important reason they chose their HMO.
 Enrollees say prescription drugs are one of the three        87%         + 3.4
 extra benefits they value the most.
 Enrollees say regular physicals are one of the three         70%         + 4.5
 extra benefits they value the most.
 Enrollees say vision benefits are one of the three extra     68%         + 4.6
 benefits they value the most.
 Recent enrollees’ answers matched Medicare data              89%         + 3.2
 with regard to coverage for regular physicals.
 Enrollees have a less accurate understanding about           80%         + 4.2
 prescription drug coverage.
 Enrollees have a less accurate understanding about           75%         + 4.4
 eye exam coverage.
 Enrollees have a less accurate understanding about           14%         + 3.6
 eye glass coverage.
 Some sample plan materials did not indicate whether          8%          + 4.0
 or not the plan provides prescription drug coverage.




Medicare + Choice HMO Extra Benefits             17                        OEI-02-99-00030
                                                                        APPENDIX C

BENEFICIARY NON-RESPONDENT ANALYSIS



When surveys are used to collect data, the results may be biased if non-respondents differ from
respondents. For this inspection, a beneficiary for whom a HMO Extra Benefit Questionnaire was
not received is a non-respondent. Additionally, a sample HMO that did not answer our request
for marketing materials is a non-respondent. We tested for non-response bias among sample
beneficiaries. However, since only a small percentage (8 percent) of sample HMOs did not
submit marketing materials, it was not necessary to perform a HMO non-respondent analysis. To
test for the presence of any bias in our analysis of beneficiary questionnaires, we first obtained
information from HCFA's Enrollment Database for all 600 beneficiaries who were sent a mail
questionnaire. The results are shown in the tables that follow.

A total of 441 beneficiary surveys were returned, for a response rate of 74%. To test for the
presence of any non-response bias, we analyzed the variables which might influence whether an
individual would respond to the survey or that might affect his or her responses. For the 600
beneficiaries in our survey we looked at: gender, race and whether the beneficiary was enrolled in
a small, medium or large Medicare HMO (strata). For purposes of this analysis, race was divided
into white and non-white in order to assure that the numbers in each cell would not be too small
to make meaningful comparisons. These categorical variables were tested using Chi-square with
the appropriate degrees of freedom.

The results of this analysis are presented in tables C(1-3). The Chi-square values given in the
tables provide a test of the difference between the distribution of the respondents and that of the
non-respondents for the variable of interest. Also provided in the tables are the response rates by
the different values of the variables. The differences in these tables between the response rates for
gender and HMO size are not statistically significant. Table C-3, however, shows a statistically
significant difference between respondents and non-respondents with respect to race. In order to
test whether this difference introduced any bias, we analyzed answers to a couple of key survey
questions given by white and non-white respondents. The two questions we looked at were:
whether cost influenced the decision to join the HMO and whether prescription drugs was the
single most important benefit that influenced the beneficiary’s decision to join their HMO. With
respect to the first question, the proportion of white and non-white respondents who answered
yes differed by 10 percentage points, so further analysis was required. Assuming that non-
respondents from each of racial groupings would have answered the same as respondents with the
same designation, we calculated hypothetical global response rates for all 600 beneficiaries in the
sample. This calculation gave only a slightly lower percentage (69% vs. 71%) of beneficiaries



Medicare + Choice HMO Extra Benefits             18                                     OEI-02-99-00030
who report that cost influenced their decision to join the HMO. This difference is not statistically
significant.

Given the results of this analysis, we believe that the inspection findings fairly represent the
experience and opinions of Medicare HMO beneficiaries to whom the questionnaires were sent.
We therefore believe that our survey results can be generalized to the universe of HMO Medicare
beneficiaries who joined Medicare+Choice HMOs between August 1,1998 and January 31, 1999.



                    CHI-SQUARE Values for Testing Significance of Differences
                         Between Respondents and Non-Respondents For
                      (1) Gender (2) Size of HMO (Strata) and (3) Race


                                             Table C-1
                                             GENDER


                                       Respondents          Non-             Total       Percent
                                                         Respondents
  Male                                  190 (43%)          66 (42%)           256          74%
  Female                                251 (57%)          93 (58%)           344          73%
  Total                                   441                 159             600          74%


  Chi-Square=0.118
  Degrees of Freedom = 1




Medicare + Choice HMO Extra Benefits                19                                  OEI-02-99-00030
                                               Table C-2

                                             HMO SIZE (Strata)



                                       Respondents             Non-           Total       Percent
                                                            Respondents
  Small                                 145 (33%)            55 (35%)         200          73%
  (>20,000 enrollees)
  Medium                                141 (32%)            59 (37%)         200          71%
  (20,000-50,0000)
  Large                                 155 (35%)            45 (28%)         200          78%
  (<50,000)
  Total                                   441                   159           600          74%


  Chi-Square=2.670
  Degrees of Freedom = 2



                                                    Table C-3
                                                     RACE


                                           Respondents             Non-          Total     Percent
                                                                respondents
  White                                     377 (86%)            116 (74%)          493      76%
  Non-White                                  62 (14%)            41 (26%)           103      60%
  Total                                         439                   157           596      74%


  Chi-Square=11.633
  Degrees of Freedom = 1




Medicare + Choice HMO Extra Benefits                   20                                 OEI-02-99-00030
                                                                    APPENDIX D


AGENCY COMMENTS

We provided the agency with a working draft copy of this report and we did not receive
comments.




Medicare + Choice HMO Extra Benefits          21                                   OEI-02-99-00030
Medicare + Choice HMO Extra Benefits   22   OEI-02-99-00030
Medicare + Choice HMO Extra Benefits   A 1- 1   OEI-02-99-00030
